U.S. Department of Justice
Office of the Solicitor General
Washington, D.C. 20530

July 28, 2021
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re: Kemon Dominique Thompson v. United States of America,
S.Ct. No. 20-8286
Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on June 4, 2021,
and placed on the docket on June 11, 2021. The government’s response is due on August 2,
2021.
We respectfully request, under Rule 30.4 of the rules of this Court, an extension of time
to and including September 1, 2021, within which to file the government’s response.
This extension is requested to complete preparation of the government’s response, which
was delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.

Sincerely,
Elizabeth B. Prelogar
Acting Solicitor General
cc: See Attached Service List

20-8286
THOMPSON, KEMON DOMINIQUE
USA

SARA WILSON KANE
FEDERAL PUBLIC DEFENDER OF THE
SOUTHERN DISTRICT OF FLORIDA
150 WEST FLAGLER STREET
STE. 1700
MIAMI, FL 33130

